Van |

@OCKLE

Le ga 1 Briefs E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-547

UNITED STATES FISH &
WILDLIFE SERVICE, ET AL.,
Petitioners,

v.
SIERRA CLUB, INC.,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of August, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF FOR AMICI CURIAE AMERICAN FOREST RESOURCE
COUNCIL, NATIONAL ASSOCIATION OF HOME BUILDERS, NFIB SMALL BUSINESS LEGAL CENTER, AND
AMERICAN FARM BUREAU FEDERATION IN SUPPORT OF RESPONDENT in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:
AMY CHAI LAWSON E. FITE
THOMAS J. WARD Counsel of Record
NATIONAL ASSOCIATION SARA GHAFOURI
OF HOME BUILDERS AMERICAN FOREST

1201 15th Street, N.W. RESOURCE COUNCIL
Washington, D.C. 20005 700 N.E. Multnomah Street,
(202) 266-8230 Suite 320

Portland, OR 97232

(503) 222-9505

Ifite@amforest.org

Subscribed and sworn to before me this 3rd day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska
f RENEE J. GOSS Qudraw- A. Chk

Notary Public Affiant 39926

 

My Comm. Exp. September 5, 2023
SERVICE LIST
No. 19-547

JEFFREY B. WALL, Acting Solicitor General
United States Department of Justice

950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

202-514-2217

SupremeCtBriefs@USDOJ.gov

Attorney for Petitioners

SANJAY NARAYAN

Sierra Club Environmental Law Program
2101 Webster Street, Suite 1300
Oakland, CA 94612

415-977-5769
sanjay.narayan@sierraclub.org

Attorney for Respondent
